      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General

                                                                        Washington, D.C. 20201




September 8, 2010

TO:            Donald M. Berwick, M.D.
               Administrator
               Centers for Medicare & Medicaid Services


FROM:          /George M. Reeb/
               Acting Deputy Inspector General for Audit Services


SUBJECT:       Review of Medicare Parts A and B Services Billed With Dates of Service After
               Beneficiaries’ Deaths (A-01-09-00519)


The attached final report provides the results of our review of Medicare Parts A and B services
billed with dates of service after beneficiaries’ deaths.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Robert A. Vito, Acting Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at Robert.Vito@oig.hhs.gov.
We look forward to receiving your final management decision within 6 months. Please refer to
report number A-01-09-00519 in all correspondence.


Attachment
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




     REVIEW OF MEDICARE
    PARTS A AND B SERVICES
         BILLED WITH
    DATES OF SERVICE AFTER
    BENEFICIARIES’ DEATHS




                      Daniel R. Levinson
                       Inspector General

                       September 2010
                        A-01-09-00519
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act, as amended, established Medicare, a health insurance
program administered by the Centers for Medicare & Medicaid Services (CMS). Federal
regulations state that Medicare will not pay for any expenses incurred for items or services that
are not reasonable and necessary for the diagnosis or treatment of illness or injury or to improve
the functioning of a malformed body member. Because medically necessary services cannot be
provided after a beneficiary dies, payments for claims with dates of service after a beneficiary’s
death are overpayments.

To identify Medicare overpayments for claims for services, medical equipment, and supplies
with dates of service after beneficiaries’ deaths, CMS relies on information in its Enrollment
Database. CMS uses two primary sources to update the date-of-death field on a beneficiary’s
record in the Enrollment Database: (1) information from claims submitted by institutional
providers (i.e., inpatient hospitals, skilled nursing facilities, hospices, and home health agencies)
and (2) information from the Social Security Administration (SSA).

Because of the inherent difficulties in receiving timely and accurate information from third
parties, Medicare can make overpayments for claims for services, equipment, and supplies with
dates of service after beneficiaries’ deaths. To identify such overpayments, CMS requires its
program safeguard contractors (PSC) to perform annual deceased-beneficiary postpayment
reviews. The PSCs obtain data for these reviews from their own beneficiary eligibility records or
from CMS deceased-beneficiary files, which contain the dates of death for all beneficiaries who
died in the preceding 2 calendar years.

Our review covered Medicare Part A and Part B paid claims totaling $171.9 million for 69,081
deceased beneficiaries. These claims had dates of service in calendar years 2006 and 2007 after
the beneficiaries’ deaths.

OBJECTIVE

Our objective was to determine whether CMS identified and recovered overpayments for
Medicare claims with dates of service after the beneficiaries’ deaths.

SUMMARY OF FINDING

CMS did not make or had already recovered overpayments for Medicare claims on behalf of 96
of the 150 beneficiaries in our sample, including all of the Part A claims sampled. However,
CMS did not identify and recover all overpayments for Part B (durable medical equipment and
physician/supplier) claims with dates of service after the remaining 54 sampled beneficiaries’
deaths. These Part B overpayments totaled $15,082.

Based on the results of our sample, we estimated that CMS did not identify and recover
$8.2 million in overpayments for Medicare Part B claims with dates of service after the
beneficiaries’ deaths.
                                                  i
CMS did not identify and recover these overpayments because (1) the date-of-death information
that the PSCs received was incomplete or inaccurate and (2) the recovery efforts were not timely.

RECOMMENDATIONS

We recommend that CMS:

   • recoup the $15,082 in overpayments identified in our sample,

   • use our Part B data to identify and collect potential overpayments estimated at $8,227,550
     for the nonsampled beneficiaries,

   • provide PSCs with complete date-of-death information,

   • correct the Common Working File (CWF) process to ensure that dates of death from home
     health claims are entered in the CWF,

   • work with SSA to obtain verified dates of death to assist in identifying overpayments, and

   • establish a CWF edit to check all prior claims for a deceased beneficiary for overpayments
     once a date of death is added to the CWF.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In comments on our draft report, CMS concurred with our recommendations and described the
corrective actions that it was taking or planned to take. CMS requested that we provide the data
necessary to recover overpayments for the sampled and nonsampled services. With respect to
the nonsampled services, CMS stated that it would share this report and the additional claims
with the recovery audit contractors. CMS’s comments are included in their entirety as
Appendix D.

We will provide CMS with the requested data.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                             Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
              Sources for Determining Dates of Death ......................................................1
              Postpayment Reviews To Recover Overpayments .......................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................2
              Objective .......................................................................................................2
              Scope .............................................................................................................2
              Methodology .................................................................................................3

FINDING AND RECOMMENDATIONS .......................................................................4

          FEDERAL REQUIREMENTS ................................................................................4

          UNIDENTIFIED AND UNRECOVERED OVERPAYMENTS............................4

          CAUSES OF UNIDENTIFIED AND UNRECOVERED OVERPAYMENTS .....5

          ESTIMATE OF UNALLOWABLE PAYMENTS .................................................5

          RECOMMENDATIONS .........................................................................................6

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS ............6


APPENDIXES

          A: SAMPLE DESIGN AND METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: EXAMPLES OF CAUSES OF UNRECOVERED OVERPAYMENTS

          D: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                                                                    iii
                                         INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act (the Act), as amended, established Medicare, a health
insurance program administered by the Centers for Medicare & Medicaid Services (CMS).
Part A of the Medicare program helps cover inpatient care in hospitals, including critical access
hospitals, skilled nursing facilities, and hospice and certain home health care. Part B of the
Medicare program helps pay for physician services, outpatient care, and other medical services
that Part A does not cover, such as certain services offered by physical and occupational
therapists.

Federal regulations state that Medicare will not pay for any expenses incurred for items or
services that are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member. Because medically necessary
services cannot be provided after a beneficiary dies, payments for claims with dates of service
after a beneficiary’s death are overpayments.

Sources for Determining Dates of Death

To identify Medicare overpayments for claims for services, medical equipment, and supplies
with dates of service after beneficiaries’ deaths, CMS relies on information in its Enrollment
Database. The Enrollment Database contains personal and demographic information on every
beneficiary ever enrolled in Medicare. CMS uses two primary sources to update the date-of-
death field on a beneficiary’s record in the Enrollment Database: (1) information from claims
submitted by institutional providers (i.e., inpatient hospitals, skilled nursing facilities, hospices,
and home health agencies) and (2) information from the Social Security Administration (SSA).

Every institutional claim submitted to CMS’s Common Working File (CWF) contains a
discharge status code, which indicates the beneficiary’s status as of the claim’s last date of
service. If the discharge status code indicates that the beneficiary has died, the CWF is designed
to enter the claim’s last service date as the date of death. The Enrollment Database receives
daily date-of-death updates from the CWF. Once the beneficiary’s date of death is entered in the
CWF, any claims submitted with dates of service after the beneficiary’s death should be denied.

For beneficiaries who die outside institutional settings, CMS obtains date-of-death information
from SSA. The Enrollment Database receives daily updates to a beneficiary’s personal
information, including the date of death, from SSA’s Master Beneficiary Record, the principal
file of Social Security and Medicare beneficiary information. If SSA has not verified the day of
the month on which the beneficiary died, the Enrollment Database enters in the date-of-death
field the last day of the month of death, as reported by SSA. If information from an institutional
claim is available and differs from SSA’s information, CMS uses the date of death from the
institutional claim.




                                                   1
Postpayment Reviews To Recover Overpayments

Because of the inherent difficulties in receiving timely and accurate information from third
parties, Medicare can make overpayments for claims for services, equipment, and supplies with
dates of service after beneficiaries’ deaths. To identify such overpayments, CMS requires its
program safeguard contractors (PSC) 1 to perform annual deceased-beneficiary postpayment
reviews. 2

The PSCs obtain data for these reviews from their own beneficiary eligibility records, which are
based on the Enrollment Database, or from CMS deceased-beneficiary files, which contain the
dates of death for all beneficiaries who died in the preceding 2 calendar years. The CMS files
are generated from beneficiary records in the Enrollment Database. The PSCs are required to
forward identified overpayments to CMS’s claim-processing and payment contractors, 3 which
are responsible for recovering the overpayments as soon as administratively possible.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether CMS identified and recovered overpayments for
Medicare claims with dates of service after the beneficiaries’ deaths.

Scope

Our review covered Medicare Part A and Part B paid claims totaling $171.9 million for 69,081
beneficiaries with dates of death in SSA’s Death Master File (a subset of the Master Beneficiary
Record). These claims had dates of service in calendar years 2006 and 2007 after the
beneficiaries’ deaths as recorded in SSA’s Death Master File.

Although we did not assess the completeness of the National Claims History file from which we
obtained claim data, we established reasonable assurance that the data were verifiable and
accurate. We limited our review of internal controls to obtaining an understanding of CMS’s
process for identifying and recovering overpayments for claims for services dated after
beneficiaries’ deaths.

We performed our fieldwork from September through December 2009 at CMS headquarters in
Baltimore, Maryland, and at National Heritage Insurance Company (a MAC) in Hingham,
Massachusetts.



1
    CMS is replacing PSCs with Zone Program Integrity Contractors.
2
    Medicare Program Integrity Manual, Pub. No. 100-08, chapter 4, section 4.27.
3
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the claim-processing and payment functions of fiscal intermediaries and carriers to
Medicare administrative contractors (MAC) between October 2005 and October 2011.

                                                          2
Methodology

To accomplish our objective, we:

    •    reviewed applicable Medicare laws, regulations, and guidance;

    •    matched date-of-death information from SSA’s Death Master File to National Claims
         History data for calendar years 2006 and 2007 to identify paid claims with dates of
         service after the beneficiaries’ deaths;

    •    selected a stratified random sample of 150 of the 69,081 beneficiaries whose claims were
         identified by our match (Appendix A) and, for the sampled beneficiaries:

             o validated the accuracy of the National Claims History data (e.g., dates of service
               and beneficiaries’ health insurance claim numbers);

             o obtained death certificates from VitalChek 4 to verify the dates of death obtained
               from SSA’s Death Master File;

             o analyzed claims in the CWF to determine whether they had correct dates of death
               and whether CMS had already recovered any overpayments;

             o requested medical records from all 670 providers/suppliers for the 150
               beneficiaries in our sample to validate the beneficiaries’ dates of death, if
               available, and dates of service; and

             o determined the amount of Medicare overpayments based on our comparison of
               the verified dates of death with the dates of service on claims;

    •    estimated the overpayments based on our sample results (Appendix B);

    •    tested the CWF processes for recording beneficiaries’ dates of death in the CWF from
         institutional claims and the CWF edits for preventing payments for claims for services
         dated after beneficiaries’ deaths;

    •    analyzed CMS’s deceased-beneficiary files to determine whether CMS made all relevant
         date-of-death information available to the PSCs;

    •    interviewed officials from two PSCs to gain an understanding of the PSCs’
         responsibilities and procedures for annual postpayment reviews;




4
 VitalChek provides official certificates of death on behalf of State and local government agencies to legally
entitled parties.

                                                          3
   •   interviewed officials from two MACs to gain an understanding of their responsibilities
       and procedures for recovering overpayments made on behalf of deceased beneficiaries;
       and

   •   discussed the results of our review with CMS.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                           FINDING AND RECOMMENDATIONS

CMS did not make or had already recovered overpayments for Medicare claims on behalf of 96
of the 150 beneficiaries in our sample, including all of the Part A claims sampled. However,
CMS did not identify and recover all overpayments for Part B (durable medical equipment
(DME) and physician/supplier) claims with dates of service after the remaining 54 sampled
beneficiaries’ deaths. These Part B overpayments totaled $15,082.

Based on the results of our sample, we estimated that CMS did not identify and recover
$8.2 million in overpayments for Medicare Part B claims with dates of service after the
beneficiaries’ deaths.

CMS did not identify and recover these overpayments because (1) the date-of-death information
that the PSCs received was incomplete or inaccurate and (2) the recovery efforts were not timely.

FEDERAL REQUIREMENTS

Pursuant to section 1862(a)(1)(A) of the Act, “no payment may be made under part A or part B
for any expenses incurred for items or services … [that] are not reasonable and necessary for the
diagnosis or treatment of illness or injury or to improve the functioning of a malformed body
member ….” Because medically necessary items or services cannot be provided after
beneficiaries’ deaths, no items or services are allowable after beneficiaries’ deaths. Accordingly,
payments for items or services claimed to have been provided after a Medicare beneficiary’s
death are overpayments.

UNIDENTIFIED AND UNRECOVERED OVERPAYMENTS

CMS did not identify and recover $15,082 in overpayments for 54 of the 150 sampled
beneficiaries. Of the unrecovered overpayments, approximately two-thirds were for DME, and
the remainder were for physician/supplier services:

   •   CMS did not identify and recover $9,963 for DME claims with dates of service after the
       beneficiaries’ deaths.


                                                 4
   •   CMS did not identify and recover overpayments totaling $5,119 for physician/supplier
       claims with dates of service after the beneficiaries’ deaths.

CAUSES OF UNIDENTIFIED AND UNRECOVERED OVERPAYMENTS

CMS relies on the PSC postpayment review process to identify and recover overpayments made
for claims with dates of service after beneficiaries’ deaths. CMS did not identify and recover the
overpayments that we found during our review for the following reasons:

   •   CMS excluded from the deceased-beneficiary files sent to the PSCs those beneficiaries
       whose dates of death had not been verified by SSA. For each such beneficiary, CMS
       recorded the date of death in the Enrollment Database as the last day of the month in which
       the beneficiary died. For a beneficiary who had both an unverified date of death from SSA
       and a date of death from an institutional claim, CMS recorded the actual date of death in its
       Enrollment Database.

   •   Tests of the CWF showed that beneficiaries’ dates of death from home health agency
       claims were not entered in the Enrollment Database even though such claims are
       considered institutional.

   •   The Enrollment Database contained the beneficiaries’ correct dates of death, and CMS
       provided that information to the PSCs. However, either the PSCs did not identify the
       overpayments (because of conflicts between the dates of death from the CWF and the
       deceased-beneficiary files, for example), or the MACs did not make the recovery (because
       the dollar amount to be recovered was below the MAC’s recovery threshold, for example).

   •   After dates of death are entered in the CWF, no automated process examines claim
       histories for possible overpayments.

   •   The postpayment review is performed only annually and is based on information in the
       PSC’s deceased-beneficiary files, which are created each January. As a result, there is
       often a significant delay between a claim’s payment date and the MAC’s attempt to
       recover the overpayment. This delay can result in the MAC’s inability to recoup the
       overpayment if the physician/supplier has gone out of business or left the Medicare
       program.

For specific examples of some of these causes, see Appendix C.

ESTIMATE OF UNALLOWABLE PAYMENTS

Based on the results of our sample, we estimated that CMS did not identify and recover
$8.2 million in overpayments for Medicare Part B claims with dates of service after the
beneficiaries’ deaths (Appendix B).




                                                5
RECOMMENDATIONS

We recommend that CMS:

   • recoup the $15,082 in overpayments identified in our sample,

   • use our Part B data to identify and collect potential overpayments estimated at $8,227,550
     for the nonsampled beneficiaries,

   • provide PSCs with complete date-of-death information,

   • correct the CWF process to ensure that dates of death from home health claims are entered
     in the CWF,

   • work with SSA to obtain verified dates of death to assist in identifying overpayments, and

   • establish a CWF edit to check all prior claims for a deceased beneficiary for overpayments
     once a date of death is added to the CWF.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In comments on our draft report, CMS concurred with our recommendations and described the
corrective actions that it was taking or planned to take. CMS requested that we provide the data
necessary to recover overpayments for the sampled and nonsampled services. With respect to
the nonsampled services, CMS stated that it would share this report and the additional claims
with the recovery audit contractors. CMS’s comments are included in their entirety as
Appendix D.

We will provide CMS with the requested data.




                                                6
APPENDIXES
               APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of beneficiaries on whose behalf Medicare paid claims for services
dated after their deaths during calendar years 2006–2007.

SAMPLING FRAME

The sampling frame was an Access database containing the health insurance claim numbers and
types of services claimed for dates of service after 69,081 beneficiaries’ dates of death as shown
in the Social Security Administration’s Death Master File.

SAMPLE UNIT

The sample unit was a deceased beneficiary.

SAMPLE DESIGN

Our sample design was a stratified random sample with the following three strata:

   •   beneficiaries with only durable medical equipment (DME) services;

   •   beneficiaries with only physician/supplier services; and

   •   beneficiaries with only Part A services or a combination of Part A, DME, and
       physician/supplier services.

SAMPLE SIZE

The sample consisted of 150 beneficiaries with 50 beneficiaries in each stratum.

SOURCE OF THE RANDOM NUMBERS

We used the Office of Inspector General, Office of Audit Services (OIG/OAS), random number
generator to generate the random numbers.

METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the sample units in each stratum. After generating 50 random
numbers for each of the 3 strata, we selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used the OIG/OAS statistical software to estimate the potential overpayments.
                           APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                                                                                 Beneficiaries
                         Frame          Frame          Sample       Value of        With           Value of
     Stratum              Size          Value           Size        Sample      Overpayments     Overpayments
DME                      42,246       $7,486,825           50        $12,178          39            $7,221

Physician/supplier       14,311         5,133,067          50          22,258          7             4,823
Part A or a
combination of
Part A, DME, and
physician/supplier
services                 12,524       159,323,887         50         600,731           81            3,038
   Total                 69,081      $171,943,779        150        $635,167          54           $15,082


                                       Estimated Value of Overpayments
                             (Limits calculated for a 90-percent confidence interval)

                                          Point estimate         $8,242,632
                                          Lower limit             5,172,733
                                          Upper limit            11,312,531




    1
        All unallowable payments were for DME and physician/supplier claims.
                APPENDIX C: EXAMPLES OF CAUSES OF
                   UNRECOVERED OVERPAYMENTS


            Incomplete and Inaccurate Data for Postpayment Review

For a beneficiary who died on July 11, 2007, the Centers for Medicare
& Medicaid Services (CMS) received the correct date of death from information in a
hospice claim submitted on August 6, 2007. In the meantime, a DME claim for $152
was billed and paid with a date of service of July 17, 2007. Although CMS recorded
the correct date of death from the hospice claim in the Enrollment Database, the
beneficiary was excluded from the program safeguard contractor’s (PSC) deceased-
beneficiary file for calendar year 2007 because the Social Security Administration’s
date of death was unverified. As a result, the overpayment was neither identified nor
recovered.




                         Lack of Timely Recovery Efforts

For a beneficiary who died on January 6, 2006, a DME supplier submitted a claim
with a January 10, 2006, date of service and was paid on January 15, 2006. An
inpatient claim with the beneficiary’s date of death was submitted on February 8,
2006, and the correct date was added to the Enrollment Database. This beneficiary
was included in the January 2007 PSC deceased-beneficiary file. However, in the
year that elapsed between the overpayment and the recovery attempt, the supplier had
gone out of business. As a result, this overpayment was never recovered.
                  APPENDIX D: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS
                                                                         Page 1 of 3
~Sf,RVJC(>.S.




(~~                DEPAR1MENT OF HBALTH &._H_V_M_A_N_S_E_R_V_I_C_E_S_ _ _ _ _ _ _c_e_nt_er_s_fo_r_Me_d_ic_ar_e_&_M_e_dic_a_id_s_e_rvi_ce_s
~" ~
"It".aa                                                                                               Office of the Administrator
                                                                                                      Washington. DC 20201




                                                                                                                         ~

                                      JUL 2 9 2010                                                                       =
                DATE:                                                                                                    =po         J
                                                                                                                         (::.        .r\
                                                                                                                Cl
                                                                                                                r"n ..
                                                                                                                         ("I
                                                                                                                                     ")
                TO:            Daniel R. Levinson                                                               'X.       N           n
                               Inspector General                                                                rr,:­
                                                                                                                 ::0      -0             ~'-
                                                                                                                 >'.      :x         . {1
                                                                                                                 r
                FROM:          Donald M. Berwick, M.D.                                                                     <2              :J
                               Administrator        -~---..
                                                  ~.....
                                                                                                                               &'"

                SUBJECT:        Office of Inspector General (OIG) Draft Report: "Review of Medicare Parts A
                                and B Services Billed With Dates of Service After Beneficiaries' Deaths"
                                (A-OI-09-00S19)


                Thank you for the opportunity to review and comment on the OIG's draft report, "Review of
                Medicare Parts A and B Services Billed With Dates of Service After Beneficiaries' Deaths".
                The Centers for Medicare & Medicaid Services (CMS) appreciates the time and resources the
                OIG has invested to review the occurrence of payment after the beneficiary's death.

                The CMS collects a beneficiary's date of death from third parties such as institutional providers
                or the Social Security Administration (SSA). As soon as a date of death is entered into the
                Common Working File (CWF) or a discharge status defined as deceased is entered into the
                CWF, an edit exists that prevents the future payment of claims. However, as mentioned in the
                draft report there are delays in the information coming from the third parties which impacts the
                timeliness of the data in our systems. Since the delay is inevitable, CMS established a process
                and created annual reports that identified potential overpayments based on beneficiary's death
                and dates of service. Through FY 2009 the reports were shared with the Program Safeguard
                Contractors (PSCs). In FY 2010 CMS began sharing the data run with the Recovery Audit
                Contractors (RACs). Since the primary task of the RACs was the identification and recoupment
                of improper payments this transition was appropriate and allows the PSCs to focus on their
                primary task of fraud identification.

                Based 'on identifications by the RACs, CMS is developing a CWF sY5ltems edit which will
                ide!1tify potential claims paid after the beneficiary'S date of death. This edit will not be fully
                automated, but it will provide a report for contractors to review and perform additional review if
                necessary in order to determine if the payment was improper.

                Our detailed comments on the report recommendations follow.
                                                                                         Page 2 of 3
                     ~



Page 2 - Daniel R. Levinson


DIG Recommendation

The OIG recommend CMS recoup the $15,082 in overpayments identified in this sample.

eMS Response

The CMS concurs. CMS agrees that the $15,082 in overpayments should be recovered. CMS
plans to recover the overpayments identified consistent with the Agency's policies and
procedures. The CMS requests that the OIG furnish for each overpayment or potential
overpayment the data necessary (Medicare contractor numbers, provider numbers, claims
information including the paid date, HIC numbers, etc.) to initiate and complete recovery action.
In addition, CMS requests that Medicare contractor specific data be written to separate CD­
ROMs or separate hardcopy worksheets in order to better facilitate the transfer of information to
the appropriate contractors.

DIG Recommendation

The OIG recommend CMS use the OIG Part B data to identify and collect potential
overpayments estimated at $8,227,550 for the nonsampled beneficiaries.

eMS Response

The CMS concurs. Upon receipt of the files from the OIG, CMS will share the OIG report and
all additional claims with the RACs. The CMS will encourage the RACs to consider the issue in
the report and to consider reviewing the additional claims subject to their Statement of Work and
any regulatory restrict!ons.

The CMS requests that the OIG furnish for each potential overpayment the data necessary
(Medicare contractor numbers, provider numbers, claims information including the paid date,
HIC numbers, etc.) to initiate and complete recovery action. In addition, CMS requests that
Medicare contractor specific data be written to separate CD-ROMs, separate hardcopy
worksheets, or sent to CMS electronically using the secure HHS/OIG web portal in order to
better facilitate the transfer of information to the appropriate contractors. The CMS requests
these files be sent separately from the files mentioned in Recommendation 1.

DIG Recommendation

The OIG recommend CMS provide PSCs with complete date-of-death information.

eMS Response

The CMS concurs. However, CMS has transitioned the date of death workload from the PSCs to
the RACs. The CMS will work to ensure RACs have complete date of death information so that
they can conduct reviews on a post payment basis. On a prepayment basis, the Medicare
Administrative Contractors (MACs) deny claims before they are paid based on the most current
date of death information in CWF.
                                                                                          Page 3 of 3

Page 3 - Daniel R. Levinson



OIG Recommendation

The OIG recommend CMS correct the CWF process to ensure that dates of death from home
health claims are entered in the CWF.                     .

eMS Response

The CMS concurs with this recommendation. We will develop the appropriate contractor
instructions and educational materials, and target implementation for April 2011. Given
contractors need 5 months lead time to implement quarterly system changes and CMS is about to
release fully developed and cleared instructions for the January 2011 quarter, April 2011 is the
first quarter for which system hours are available for implementing the changes required by this
recommendation.

OIG Recommendation

The OIG recommend CMS work with SSA to obtain verified dates of death to assist in
identifying overpayments.

CMS Response

The CMS concurs. CMS and SSA exchange data on a daily basis. SSA maintains information
about a beneficiary's date of death on the SSA Master Beneficiary Record (MBR). Data is
extracted from the MBR and data is sent to CMS via the Combined Exchange Record (CER). To
the extent that SSA knows about a beneficiary's date of death, then that information is provided
to CMS. The CER contains the complete date of death (day, month, year). In the past SSA may
have sent to CMS dates of death with just the month and year. This should no longer be
occurring, except in extremely rare instances.

OIG Recommendation

The OIG recommend CMS establish a CWF edit to check all prior claims for a deceased
beneficiary for overpayments once a date of death is added to the CWF.

CMS Response

The CMS concurs. CMS is developing a CWF systems edit which will identify potential claims
paid after the beneficiary's date of death. This edit will not be fully automated, because there are
some situations such as inpatient claims where medical review would be necessru.:y.to determine
if the claim should be paid or not. However the edit will provide a report of identified claims·
that the contractors shall be required to take action on and perform additional review if necessary
to determine if the payment was improper.

Again, we thank you for the opportunity to review and comment on this draft report.
